     Department of Homeland Security

     ��������������������������



           Santa Cruz County, California, 

    Generally Followed Regulations for Spending 

          FEMA Public Assistance Funds





OIG-14-03-D                             October 2013

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                    Washington, DC 20528 / www.oig.dhs.gov


                                          October 31, 2013

MEMORANDUM FOR:                    Nancy Ward
                                   Regional Administrator, Region IX
                                   Federal Emergency Management Agency
FROM:                              John V. Kelly
                                   Assistant Inspector General
                                   Office of Emergency Management Oversight

SUBJECT:                           Santa Cruz County, California, Generally Followed
                                   Regulations for Spending FEMA Public Assistance Funds
                                   FEMA Disaster Number 1646-DR-CA
                                   Audit Report Number OIG-14-03-D

We audited Federal Emergency Management Agency (FEMA) Public Assistance grant
funds awarded to Santa Cruz County, California (County), Public Assistance Identification
Number 087-99087-00. Our audit objective was to determine whether the County
accounted for and expended FEMA grant funds according to Federal regulations and
FEMA guidelines.

The California Governor’s Office of Emergency Services (Cal OES), a FEMA grantee,
awarded the County $6,214,400 for costs resulting from storms, flooding, debris flows,
and mudslides from March 29, through April 16, 2006.1 The award provided 75 percent
FEMA funding for 17 large projects and 26 small projects. 2 Our audit covered the period
from March 29, 2006 to September 6, 2013. We audited 7 large and 16 small projects
totaling $4,628,127 (see exhibit). As of the date of this report, Cal OES was in the
process of reviewing the County’s final claim.

We conducted this performance audit between March and September 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our

1
  At the time of this disaster, the grantee’s name was the Governor’s Office of Emergency Services (OES).

However, OES became part of Cal EMA from January 1, 2009 to June 30, 2013—including during the time

of our fieldwork. As of July 1, 2013, Cal EMA transitioned back to the California Governor’s Office of

Emergency Services (Cal OES).

2
  Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
   audit objective. We conducted this audit by applying the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, Cal OES, and County officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our objective. We did not assess the adequacy of
   the County’s internal controls applicable to grant activities because it was not necessary
   to accomplish our audit objective. However, we did gain an understanding of the
   County’s method of accounting for disaster-related costs and its procurement policies
   and procedures.

                                              BACKGROUND

   Santa Cruz County is located on the California coast, approximately 65 miles south of
   San Francisco, California. It is the Gateway to the Monterey Bay National Marine
   Sanctuary with 29 miles of beaches, six state parks, and six state beaches. The County
   also has more than 200 miles of bike lanes and paths for commuters and recreational
   riders. The County’s Public Works Department is responsible for maintaining more than
   600 miles of County roads. However, the heavy rains that occurred during the incident
   period caused flooding and mudslides, which severely damaged several hillside roads
   throughout the County. Figure 1 shows damage that occurred to one of the County’s
   roads.




             Figure 1: Project 268, Santa Cruz County – road damage at two sites of Vine Hill Road
                                           Source: Santa Cruz County




www.oig.dhs.gov                                       2                                         OIG-14-03-D
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                      RESULTS OF AUDIT 


   County officials generally accounted for and expended FEMA Public Assistance grant
   funds according to Federal regulations and FEMA guidelines. However, the County
   received $213,574 for 16 small projects and approximately $81,760 for 1 large project
   they did not complete. According to 44 CFR 206.204(d)(2), FEMA will not provide
   funding if an eligible applicant fails to complete a large or small project. Therefore,
   FEMA should disallow $213,574 as ineligible for 16 small projects the County did not
   complete and deobligate $81,760 in funds the County did not use to complete 1 large
   project.

   County officials concurred with the finding and confirmed that they did not perform any
   work on the 16 small projects and 1 large project. Cal OES and FEMA officials also
   concurred with the finding. After our September 2013 exit conferences, FEMA
   disallowed and deobligated $213,574 for the 16 uncompleted small projects and
   deobligated $81,760 for the uncompleted large project. Therefore, we consider the
   recommendations for this report to be resolved and closed.


                                        RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $213,574 (Federal share $160,181) as ineligible for
   16 small projects the County did not complete.

   Recommendation #2: Deobligate $81,760 (Federal share $61,320) in unused funding for
   Project 85 and put those funds to better use.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with County officials during our audit and included
   their comments in this report, as appropriate. We also provided a written summary of
   our finding and recommendations in advance to FEMA on September 6, 2013. We
   discussed the summary document at an exit conference with Cal OES and County
   officials on September 6, 2013, and with FEMA officials on September 24, 2013. Those
   officials agreed with the finding and recommendations.

   After our exit conferences, FEMA provided proof that it had disallowed and deobligated
   $213,574 for the 16 uncompleted small projects and deobligated $81,760 for the
   uncompleted large project. We consider these actions sufficient to resolve and close the


www.oig.dhs.gov                                3                                  OIG-14-03-D
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   recommendations we included in this report. Therefore, we require no further actions
   and consider this report closed.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Louis Ochoa,
   Audit Manager; and Renee Gradin and Arona Maiava, Senior Auditors.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Humberto Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                               4                                     OIG-14-03-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                                                                  Exhibit

            Schedule of Projects Audited, Questioned Costs, and Unused Funding
                  FEMA
      Project Category Net Award               Costs       Questioned      Unused
      Number of Work          Amount         Claimed          Costs        Funding
     Large Projects
         85         C            $81,760                             $0      $81,760
         92         C            977,694       $977,694
         94         C            822,232        812,296
        266         C            633,662        633,662
        268         C            829,539        829,539
        524         A            227,640        256,140
        531         C            823,462        823,462
     Small Projects
         62         C             $9,415                         $9,415
         65         C              7,757                          7,757
         66         C              8,523                          8,523
         67         C              8,641                          8,641
        313         C              2,681                          2,681
        363         C              2,888                          2,888
        448         C             11,943                         11,943
        455         C              7,560                          7,560
        509         C             12,742                         12,742
        521         C              7,161                          7,161
        529         C             44,003                         44,003
        530         C              5,774                          5,774
        569         C              2,728                          2,728
        575         C             40,484                         40,484
        582         C             10,228                         10,228
        587         C             31,046                         31,046
       Totals                 $4,609,563     $4,332,793       $213,574       $81,760

           Note: The audit amount of $4,628,127 consists of costs claimed totaling $4,332,793 (including
           $18,564 in cost overruns) plus $213,574 the County received for uncompleted small projects plus
           $81,760 in unused funding for a large project the County did not complete.




www.oig.dhs.gov                                      5                                        OIG-14-03-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                              Appendix


                                      Report Distribution

   Department of Homeland Security
   Acting Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-13-015)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Governor’s Office of Emergency Services)
   Director
   Executive Assistant to the Director
   Chief of Staff
   Audit Liaison

   State (California)
   California State Auditor, Bureau of State Audits

   Subgrantee (Santa Cruz County, California)
   Director of Public Works
   Senior Manager
   Interim Manager
   Principal Accountant-Auditor

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board



www.oig.dhs.gov                                 6                             OIG-14-03-D
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                                                                             Appendix
                                                                           (continued)

   Congressional Oversight and Appropriations Committees, as appropriate, including:
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                             7                                OIG-14-03-D
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
